IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-138
JOSEPH R. BIDEN JR., PRESIDENT OF THE UNITED STATES, ET AL.,
PETITIONERS
v.
SIERRA CLUB, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______________
MOTION OF THE PETITIONERS
TO HOLD THE BRIEFING SCHEDULE IN ABEYANCE AND
TO REMOVE THE CASE FROM THE FEBRUARY 2021
ARGUMENT CALENDAR
_______________
Pursuant to Rule 21.1 of the Rules of this Court, the Acting
Solicitor General, on behalf of petitioners, President Joseph R.
Biden Jr., et al., provides this notice of a recent Proclamation
by the President affecting this case, and respectfully moves to
hold the briefing schedule in abeyance and to remove this case
from the February 2021 argument calendar. *

Petitioners’ reply

* President Biden is substituted as a party for his
predecessor in office.
See Sup. Ct. R. 35.3.
Other officialcapacity
parties
have
also
been
substituted
for
their
predecessors, and several further substitutions are likely to

2
brief is currently due on February 11, 2021, and the case is
currently scheduled for argument on February 22, 2021.
authorized

to

represent

that,

in

light

of

the

We are
current

circumstances, respondents consent to petitioners’ request to hold
the briefing schedule in abeyance and to remove the case from the
February 2021 argument calendar, without prejudice to either side
requesting to have the case recalendared should the matter not be
resolved.
1.

This case concerns actions taken by the then-Acting

Secretary of Defense to construct a wall at the southern border of
the United States during the prior Administration.

In 2019, the

Acting Secretary transferred approximately $2.5 billion between
Department of Defense (DoD) appropriations accounts in order to
respond to a request from the Department of Homeland Security for
counterdrug assistance at the border under 10 U.S.C. 284.

To

transfer the appropriated funds, the Acting Secretary invoked
Section 8005 of the Department of Defense Appropriations Act,
2019, Pub. L. No. 115-245, Div. A, Tit. VIII, 132 Stat. 2999, and
a

similar

provision

that

is

subject

to

the

same

terms

and

conditions as Section 8005.
The questions presented in the government’s petition for a
writ of certiorari, which this Court granted on October 19, 2020,
are (1) whether respondents have a cognizable cause of action to
occur in the near future as current acting officials are succeeded
by appointees.

3
obtain judicial review of the Acting Secretary’s compliance with
a

limiting

proviso

in

Section

8005

in

making

the

transfers

described above; and (2) whether the Acting Secretary exceeded his
statutory authority under Section 8005 in making those transfers.
2.

On

January

20,

2021,

President

Biden

issued

a

Proclamation declaring that “[i]t shall be the policy of [his]
Administration that no more American taxpayer dollars be diverted
to construct a border wall.”

App., infra, 1a (Proclamation No.

10,142, 86 Fed. Reg. 7225, 7225 (Jan. 27, 2021)).

In furtherance

of that policy, the President directed the Secretary of Defense
and the Secretary of Homeland Security to “pause work on each
construction project on the southern border wall, to the extent
permitted by law, as soon as possible but in no case later than
seven days from the date of [the] proclamation.”

Ibid.

The

President also directed the Secretaries to “pause immediately the
obligation of funds related to construction of the southern border
wall, to the extent permitted by law.”

Ibid.

The Secretaries may

make an exception to the pause in construction “for urgent measures
needed to avert immediate physical dangers or where an exception
is required to ensure that funds appropriated by the Congress
fulfill their intended purpose.”
The

President

directed

Id. at 2a.

that

the

pause

in

construction

required by the Proclamation be used to undertake an “assessment
of the legality of the funding and contracting methods used to

4
construct the wall” and of “the administrative and contractual
consequences of ceasing each wall construction project.”

App.,

infra, 1a. The President also directed the Secretaries to “compile
detailed information on all southern border wall construction
projects, the completion status of each wall construction project,
and the funds used for wall construction since February 15, 2019,”
including specifically funds drawn from the DoD appropriations
account used to provide counterdrug assistance under Section 284.
Ibid.

Finally,

the

President

directed

the

Secretaries,

in

consultation with the Attorney General and other officials, to
develop a plan within 60 days “for the redirection of funds
concerning the southern border wall.”

Id. at 2a.

“After the plan

is developed,” the Secretaries “shall take all appropriate steps
to resume, modify, or terminate projects and to otherwise implement
the plan.”
3.

Ibid.

issued

On January 23, 2021, the Deputy Secretary of Defense
a

memorandum

to

various

DoD

officials,

including

the

Commander of the U.S. Army Corps of Engineers (the Corps), to begin
implementing

the

President’s

January

20

Proclamation.

App.,

infra, 4a-6a (Memorandum from David L. Norquist, Deputy Secretary
of Defense, to the Chairman of the Joint Chiefs of Staff, et al.,
Department

of

Defense

Actions

Regarding

January 20, 2021 (Jan. 23, 2021)).
Secretary

ordered

the

Corps

to

the

Proclamation

of

As relevant here, the Deputy

“pause

work

on

all

projects”

5
undertaken under Section 284, “to the extent permitted by law, as
soon as possible, but in no case later than 1700 EST, Wednesday,
January 27, 2021.”
Proclamation,

Id. at 5a.

the

Deputy

Consistent with the Presidential

Secretary’s

memorandum

authorizes

an

exception to the pause in Section 284 construction “for urgent
measures needed to avert immediate physical dangers.”

Ibid.

The

Deputy Secretary also ordered the Corps to “cease exercising the
authority provided by [Section 284] to award contracts or options
on existing contracts, incur new obligations that advance project
performance,

or

incur

new

contractual obligations.”
4.

In

light

of

expenses

unrelated

to

existing

Ibid.

these

recent

developments,

petitioners

respectfully request that the Court hold further briefing in
abeyance and remove this case from the February 2021 argument
calendar.

The

government’s

reply

brief

is

currently

due

on

February 11, 2021, and the case is currently scheduled for argument
on February 22, 2021.
The President has directed the Executive Branch to undertake
an assessment of “the legality of the funding and contracting
methods used to construct the wall,” including the use of Section
8005 to transfer funds for Section 284 projects, App., infra, 1a,
and also to develop a plan within 60 days for “the redirection of
funds concerning the southern border wall, as appropriate and
consistent with applicable law,” id. at 2a.

It would therefore be

6
appropriate for the Court to hold further proceedings in this case
in abeyance to allow for the completion of the process that the
President has directed.
5.

We have consulted with counsel for respondents, who have

informed us that in light of the current circumstances, respondents
consent to petitioners’ request to hold the briefing schedule in
abeyance and to remove the case from the February 2021 argument
calendar, without prejudice to either side requesting to have the
case recalendared should the matter not be resolved.
motion

is

granted,

we

will

advise

the

Court

of

If this
material

developments that would support further action by the Court.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
FEBRUARY 2021

